     PROCUREMENT PRACTICES AND PROCEDURES FOR
          OBTAINING CONTRACTOR SUPPORT AT
   DEFENSE FINANCE AND ACCOUNTING SERVICE-DENVER         .




Report No. 98-132                          May 8, 1998




              Office of the Inspector General
                  Department of Defense
r
    Additional Information and Copies

    To obtain additional copies of this audit report, contact the Secondary Reports
    Distribution Unit of the Analysis, Planning, and Technical Support Directorate at
    (703) 604-8937 (DSN 664-8937) or FAX (703) 604-8932 or visit the Inspector
    General, DOD, Home Page at: WWW.DODIG.OSD.MIL.
                                                                    .
    Suggestions for Audits

    To suggest ideas for or to request future audits, contact the Planning and
    Coordination Branch of the Analysis, Planning, and Technical Support
    Directorate at (703) 604-8908 (DSN 664-8908) or FAX (703) 604-8932. Ideas
    and requests can also be mailed to:

                       OAIG-AUD (ATTN: APTS Audit Suggestions)
                       Inspector General, Department of Defense
                       400 Army Navy Drive (Room 801)
                       Arlington, Virginia 22202-2884

    Defense Hotline

    To report fraud, waste, or abuse, contact the Defense Hotline by calling
    (800) 4249098; by sending an electronic message to
    Hotline@DODIG.OSD.MIL; or by writing to the Defense Hotline, The
    Pentagon, Washington, D.C. 20301-1900. The identity of each writer and caller
    is fully protected.




Acronyms

AFB                    Air Force Base
AT&T                   American Telephone and Telegraph Technologies, Inc.
DEIS                   Defense Enterprise Integration Services
DFAS                   Defense Finance and Accounting Service
DFAS-DE/AN             Directorate of Systems and Procedures
DFAS-DE/ANI            Accounting and Integration Division
FAR                    Federal Acquisition Regulation
FISC                   Fleet Industrial Supply Center
FSO                    Financial Systems Organization
IMAS                   Interim Migratory Accounting System
JIEO                   Joint Interoperability Engineering Organization
MIPR                   Military Interdepartmental Purchase Request
PMR                    Project Management Reporting
                                    INSPECTOR     GENERAL
                                   DEPARTMENT DF DEFENSE
                                     400 ARMY NAVY DRIVE
                                   ARLINGTON. VIRGINIA 22202




                                                                             May 8, 1998

MEMORANDUM FOR DIRFgR,                  DEFENSE FINANCE AND ACCOUNTING


SUBJECT: Audit Report on Procurement Practices and Procedures for Obtaining
         Contractor Su port at Defense Finance and Accounting Service-Denver
         (Report No. !!8-132)


        Weare        viding this report for information and use. This report is the second
in a series invo p”
                  ving contracting at the Defense Finance and Accounting Service. We
conducted the audit in response to a complaint to the Defense Hotline.

        Management comments on a draft of this report were considered in preparing
the final report. The comments were responsive and conformed to the requirements of
DOD Directive 7650.3; therefore, no additional comments are required.

        We appreciate the courtesies extended to the audit staff. Questions on this audit
should be directed to Mr. Terry L. McKinney at (703) 604-9288 (DSN 664-9288) or
Mr. Bruce A. Burton at (703) 604-9282 (DSN 664-9282). See Appendix C for the
report distribution. The audit team members are listed inside the back cover.




                                         David K. Steensma
                                  Deputy Assistant Inspector General
                                             for Auditing
                       Office of the Inspector General, DOD

Report No. 98-132                                                          May 8,1998
  (Project
        No. 7CK-8009.0   1)

           Procurement Practices and Procedures for Obtaining
               Contractor Sup rt at Defense Finance and
                       Accoun p”
                               ing Service-Denver
                                                          .
                                Executive Summary

Introduction. This report is the second in a series involving contracting at the Defense
Finance and Accounting Service. The first report (98-099) covered the use of a single
contractor to perform contract reconciliation services for over 8 years (*Appendix A).
We performed the audit in response to a complaint to the Defense Hotlme concemm
contracting practices and procedures for obtaining contractor support, and funding o B
system development at Defense Finance and Accounting Service-Denver.

Audit Objectives. The primary objective was to determine whether the hotline
complaint had merit. We also evaluated the management control program as it applied
to the objective.

Audit Results. The allegations to the DOD Hotline had merit. Program officials
responsible for projects involving acquisition and development of automated
information systems under the cognizance of the Accounting Department engaged in
questionable procurement practices when they directed the work to specific contractors
without ensuring that the contractors offered the best value to the Government.
Program officials also spent Government funds for a project that resulted in minimal
benefits. In addition, the action of the Director, Defense Finance and Accounting
Service-Denver to eliminate the appearance of a conflict of interest involving a high-
level official was not effective. As a result, program officials did not compute
procurements, resulting in higher prices that could have been 22 to 51 percent less than
the contracted costs, and unnecessarily spent $122,000 for the development of an
unauthorized project. In addition, a potential conflict of interest continues to exist at
Defense Finance and Accounting Service-Denver. See Part I for discussion of the audit
results and Appendix A for details of the review of the management control program.

Summary of Recommendations. We recommend that the Director, Defense Finance
and Accounting Service: establish a team of headquarters procurement personnel that
will perform a periodic review of the implementation of Defense Finance and
Accounting Service Regulation 4200.1, “Acquisition Authority and Polic mto
eliminate the recurrence of procurement problems addressed in the audit &i ding, and
investigate and take appropriate actions against those personnel involved in directing
improper contract awards and performing an unauthorized project.
Management Comments. The Defense Finance and Accounting Service agreed to
establish a team of headquarters procurement personnel to accomplish a penodic review
of DFAS Regulation 4200.1 implementation. This review will be completed by
June 30, 1998. Defense Finance and Accounting Service also agreed with the
recommendation to take appropriate action against those personnel involved in
questionable contract practices, pending the outcome of an investigation by the Defense!
Criminal Investigative Service. See Part III for the full text of the management
comments.
Table of Contents

Executive Summary                                                     i

Part I - Audit Results
      Audit Background                                               2
      Audit Objectives                                 .             4
      Obtaining Contractor Support for Acquisition and Development
      of Systems                                                      5

Part II - Additional Information
      Appendix A. Audit Process
        Scope and Methodology
        Management Control Program
      Appendix B. Contractor Labor Cost Comparisons
      Appendix C. Report Distribution

Part III - Management Comments

      Defense Finance and Accounting Service Comments                28
Part I - Audit Results
Audit Background
    The review was performed in response to a complaint to the Defense Hotline.
    This report is the second in a series regarding complaints made to the Defense
    Hotline about the Defense Finance and Accounting Service (DFAS). This
    particular complaint addressed contracting practices and procedures for
    obtaining contractor support and funding of system development at the
    Department of Accounting, Defense Finance and Accounting Service-Denver.
                                                              l



    Defense Finance and Accounting Service.        DFAS was established in January
    1991 to reduce the cost and improve the quality of DOD financial management
    by consolidating, standardizing, and integrating finance and accounting
    procedures, operations, and systems. In addition, DFAS identifies and
    implements finance and accounting requirements, systems, and functions for
    appropriated and nonappropriated funds, working capital funds, revolving
    funds, and trust funds. The ultimate goals are to streamline financial operations
    and services within DOD, eliminate redundancies, and initiate standard finance
    and accounting operations. DFAS assumed responsibility for all finance and
    accounting operations, including 332 associated installation finance and
    accounting offices. DFAS consists of a headquarters staff, 5 field centers and
    17 operating locations.

    The DFAS headquarters is organizationally accountable to the Office of the
    Under Secretary of Defense (Comptroller). The DFAS headquarters, located in
    Arlington, Virginia, provides centralized guidance, control, and oversight of
    finance and accounting operations at the centers and operating locations. Actual
    operations are decentralized and accomplished by the centers and operating
    locations. The five centers are located in Cleveland, Ohio; Columbus, Ohio;
    Denver, Colorado; Indianapolis, Indiana; and Kansas City, Missouri. In
    addition, the Financial Systems Organization (FSO) provides information
    technology support services to DFAS on a fee-for-service basis.

    DFAS-Denver.      DFAS-Denver performs centralized financial accounting and
    reporting for the Air Force and some DoD agencies. The center reviews and
    analyzes d      mental-level financial data reports, and prepares yearend closing
    statements “F”
                or certification by the Assistant Secretary of the Air Force
    (Financial Management and Comptroller). DFAS-Denver maintains pay
    systems for 1.9 million military personnel and disburses pay to approximately
    300,000 DOD civilian personnel. DFAS-Denver also collects Government
    receivables owed to the Air Force. One of the divisions of DFAS-Denver is
    Accounting and Integration (DFAS-DE/ANI) in the Directorate of Systems and
    Procedures (DFAS-DE/AN), Deputate for Accounting (Department of
    Accounting).




                                        2
The organization of DFAS-Denver which is addressed in this report is shown
below:




  IDirector, DFAS -
   Denver Center          I



        Deputate of Accounting,
        (Accounti~Depatment)
                (A)



              systems and Procedures
              Directorate (AN)         I




DFAS-DE/ANI was established in 1994 to coordinate and integrate a 3-year
effort to modernize and consolidate Air Force major command, departmental,
field and unique accounting s stems. DFAS-DEYANI is designated as the office
primarily responsible for con #iguration control of accounting systems managed
by the Department of Accounting. Also, the division provides program
management and contract administrative services for business and software
process improvement.

F’lnancial Systems Organization (FSO). FSO is a subordinate organization of
DFAS and reports to the Headquarters Director of DFAS through the DFAS
Deputy Director for Information Management. Currently, the Director of FSO
and the DFAS Deputy Director for Information Management are the same             i
person. FSO provides a wide range of information technology su~rport services
to DFAS and end-users, such as DFAS-Denver, on a fee-for-service basis.
Services that FSO provides are the development and maintenance of automated
information for finance and accounting missions, the integration of new
technology into DFAS business processes, and management of the DFAS
technology infrastructure. FSO also provides centralized support for DFAS
information technology acquisition. DFAS requires coordination between FSO
and proponents of project task orders, such as DFAS-DWANI, for services
costing over $25,000 to ensure that FSO is given the opportunity to bid on
system development work before the proponents contract with another source.




                                           3
     ObtaInIng Contract Services. The Office of the Under Secretary of Defense,
     Director, Defense Procurement established DFAS as a contracting organization
     in November 1996. Prior to this, DFAS obtained contracting services from
     other DOD organizations and, in some cases, other Federal agencies. DFAS
     headquarters issues internal regulations and memorandums to instruct field
     organizations on procedures for acquiring goods and services. DFAS
     headquarters, in an effort to tighten contracting controls, obtained contracting.
     services from the Fleet Industrial Suply Center @SC), San Diego, California
     in 1994. If the DFAS field organizatrons did not use the Fleet Industrial Supply
     Center, San Diego as the contracting office, DFAS headquarters had to approve
     a waiver. DFAS headquarters also authorized all DFAS organizations to order
     goods and services from the Defense Information Service Agency’s Defense
     Enterprise Integration Services (DEIS).



Audit Objectives
     The primary objective was to determine whether the hotline complaint had
     merit. The audit process, including the review of the management control
     program, is found in Appendix A.
           Obtaining Contractor Support for
           Acquisition and Development of Systems
           Program officials responsible for projects involving acquisition and
           development of automated information systems within the Accounting
           Department at DFAS-Denver engaged in questionable procurement
           practices when they directed the work to specific contractors without
           ensuring that the contractors offered the best value to the Government.
           Officials also spent Government funds for a project without obtaining
           authorization or determining if other s stems could have satisfied the
           requirement. In addition, actions by x e DFAS-Denver Director to
           eliminate a tential conflict of interest involving a high-level official
           were not ef p”
                        ective. These problems occurred because:

                   l program officials mistakenly believed that the award of
           delivery orders met the competition requirements of the Federal
           Acquisition Regulation (FAR) and, in certain cases, circumvented
           Federal procurement policies and procedures,

                   l program officials did not always use in-house contracting
           expertise, and

                   l DFAS-Denver management took insufficient action to
           eliminate a potential conflict of interest by a manager who had close ties
           to a contractor that was receiving much of the directed work.

           As a result, contracts awarded to obtain support for the acquisition and
           development of information systems did not receive the benefits of
           competition and resulted in higher prices adding from $1.8 million to
           $3.7 million to the contracted costs. DFAS-Denver also unnecessarily
           spent $122,000 for the development of the Project Management
           Reporting (PMR) system. In addition, a potential conflict of interest
           continues to exist.

                                                                                        i

Background
    DFAS headquarters issued two memorandums to all DFAS elements and centers
    that identified the FISC, San Diego and the Defense Information Systems
    Agency as sources of contracting support. In a December 5, 1994
    memorandum, DFAS called FISC its “contracting activity.” As part of its
    u&racting for DFAS, FISC, San Diego awarded contracts to four prime
    contractors, each with a team of subcontractors, in September 1996 as a
    multiple award acquisition. The contracts were designed to provide contractor
    support for DFAS automated systems development and maintenance efforts.



                                        5
Obtaining Contractor Support for Acquisition and Development of Systems

      In a November 20,1993 memorandum, DFAS headquarters announced that all
      DFAS elements and centers could use the DEIS multiple awards contracts issued
      by the Defense Information Systems Agency. The DEIS contracts consisted of
      six prime contractors each with a team of subcontractors. The contracts
      provided a broad range of services such as program and project management;
      mtegration program management and development; integration and migration
      strategy; assessment su    rt; integration prototyping and testing, training,
      documentation, and in pp”
                              ormation dissemination; integration engineering and
      software development; and technical management planning. Use of the FISC,
      San Diego and DEIS contracts was intended to encouragecompetition and to
      meet the FAR requirements since each order issued would be competed between
      prime contractors.



Procurement of Contractor Support
      Selecting Sources of Contractor Support. Despite DFAS headquarters
      designation of the FISC, San Diego as its contracting office, and the emphasis
      on the availability of the DEIS contracts, DFAS-Denver program officials, in
      most cases, obtained contractor support from organizations other than FISC and
      DEIS, including sources outside of DoD. Military Interdepartmental Purchase
      Requests (MIPRs) were issued to provide funds for contractor support contracts.
      Between September 1994 and June 1997, the DFAS-DE/AN issued MIPRs with
      a total value of $23 million for 19 projects to different contract activities. The
      following table shows the different contracting organizations the program
      officials used and the total value of MIPRs issued.


                 Table 1. Contracting Organizations and MIPR Awards
                                                                          RM
      Defense Fuel Supply Center                                        $ 1,800,OOO
      Department of Justice                                                 847,000
      Maxwell Air Force Base (AFB)                                        2,000,000
      Joint Interoperability Engineering Organization (JIEO)             12,222,458
      Bolling AFB                                                           542,245
      Andrews AFB                                                         2,102,415
      National Institute of Health                                        2,080,500
      Fleet Industrial Supply Center, San Diego                           1.836.455

                 Total                                                 $23,431,a73

               Choice of Contractor. Program officials were primarily responsible for
      selecting sources of contractor support and these officials used existing contracts
      to obtain specific contractors without competing the requirement. Program
      officials identified the contractor and contract to be used even before they


                                           6
Obtaining Contractor Support for Acquisition and Development of Systems


submitted formal requests for procurement support. Contract files did not
      rt the need to use contracting organizations other than FIX or the
K Y”ense Information Systems Agency DEIS contracts. Despite requirements,
program officials also did not obtain waivers to use other contracting sources.
This was especially significant since the division initiating these procurement
actions was managed by the DFAS-DWANI chief who had a close relationship
with a high ranking employee of Logicon Fourth Generation Technolog
(Logicon 4GT). procurements showed a pattern of contract awards to x1‘s
partqlar contractor. Logicon 4GT received contqact awards for the vast
majority of contractor support efforts and performed much of the work. The
company provided support for 16 projects, either as a prime or subcontractor
through contracts issued by the Joint In&operability Engineering Organization
(JIEG), Andrews, Bolling, and Maxwell Au Force Bases, and FISC, San
Diego. The following graph shows work awarded to Logicon 4GT by buying
organizations.
                     FISC SanDho       9%             MaaweUAFB   10%


             Andrew AFB      10%




               NIH    10%



             l3ohgAFB       296




             AFB   Air ForceBase           --ia
             NIH    Natbnal Institute of H&h


           Percentage of Logicon 4GT Contract Awards
       Examples of Logicon 4GT Contract Involvement. DFAS-DE/ANI
procured contract support for the Interim Migratory Accounting System (IMAS)
through issuance of a delivery order to American Telephone and Telegraph
Technologies, Inc. (AT&T), under prime contract F19630-88-D-05 with
Maxwell AFB. The in-house contracting officer awarded the delivery order
based on a request from the DFAS-DWANI chief. Logicon 4GT, a
subcontractor, petiormed the work on the contract.
The JIEG contract DAABO7-91-D-B519was selected to support eight projects
for which Logicon 4GT rformed the work as a subcontractor. This
arrangement was unusuaf=in that Logicon 4GT was not even included as a
subcontractor when the U.S. Arm Communications and Electronics Command
awarded the contract. Logicon 4d T was added as a subcontractor after the
DFAS-DWANI chief contacted the prime contractor, Lo icon Eagle
Technology, Inc., and JIEG for the support of the TransBer of Management



                                                  7
Obtaining Contractor Support for Acquisition and Development of systems

      Responsibility of Systems project. The support for the project was Logicon
      4GT’s initial effort under the JIEO contract. Thereafter, Logicon 4GT provided
      support for seven other projects.
      A contract with Lockheed Martin Federal Systems, Inc. under a multiple
      contract arrangement with the FISC, San Diego also became a vehicle to obtain
      contractor support from Logicon 4GT. Logicon 4GT, as a subcontractor,
      performed most of the work to support the Budget and Accounting
      Classification Implementation proJect. During the award process of the contract
      with Lockheed Martin Federal Systems, Inc., DFAS-DE/MB personnel went as
      far as changing evaluation criteria, inconsistently rating contractors, and poor1
      documenting contractors’ rating to make an award to Lockheed Martin Fede raly
      Systems, Inc. where the subcontractor, Logicon 4GT, performed the work.
      Although Lockheed Martin Federal Systems, Inc’s price was $200,000 higher
      than another contractor, it received the award based on technical merit after the
      changed criteria.
      In another rocurement for the Negative Unliquidated Obligation project,
      DFAS-D Y ANI directed work through a Logicon 4GT prime contract with
      Boiling AFB and allowed the contractor to bill overhead and profit when the
      work was actually completed by Coopers and Lybrand. The award to Logicon
      4GT was made des ite the fact that a Defense Fuel Supply Center contract
      SPO600-95-D-552 s with Coopers and Lybrand, which was used in subsequent
      procurements, was already available for use and would have been more
      cost-effective.
      As a result of these awards, the Government unnecessarily paid higher prices
      that included overhead and other additives that prime contractors char ed for
      using their subcontractors. DoD also paid higher management fees wI en using
      certain buying offices that were not prescribed in headquarters instructions.

              Use of JIEO Contract. Particularly illustrative of the questionable
      procurements was the DFAS-DE/ANI use of the JIEO contract DAABO7-91-D-
      B519. The DFAS-DE/ANI used this contract and issued a series of delivery
      orders to support eight projects. When officials initially decided to use the
      contract in November 1994 to support the Transfer of Management
      Responsibility of Systems project, DFAS-DE/ANI contacted the contractor
      before a formal request for support was submitted to JIEO. Also, although
      there was a requirement to coordinate with the FSO for contractor support
      procurements, four of the eight projects bypassed the FSO. The
      DFAS-DWANI chief and his staff contacted the JIEO directly and did not
      inform the FSO regardin the procurements for the four projects. Even when
      the FSO was informed o P the procurements, the DFAS-DE/ANI chief still
      influenced the selection of the contractor. For example, in a memorandum sent
      to FSO from the chief of DFAS-DIYANI on the acquisition strategy for the
      General Ledger/Fund Control project, the DFAS-DWANI chief stipulated that:

                 . ..the eagineering,
                                    technical, and program support service6 for this
                 concept design phrasewill be provided under an existing DISA Joint
                 Interoper&ility Engineering Organization contract.. .
     Obtaining Contractor Support for Acquisition and Development of Systems


    The memorandum identified the contract number as DAAB07-91-D-B519, a
    contract with Logicon Eagle Technology, Inc., on which Logicon 4GT
    performed as a subcontractor. The on1 justification for using contract
    DAABO7-91-D-B519as mentioned in x e memorandum was . . .‘provide
    continuity of the IMAS work performed to date”... (referring to the IMAS
    project that Logicon 4GT worked on as a subcontractor under Maxwell AFB
    contract F19630-88-D-0005 with AT&T). The FSO program officials
    concurred with the DFAS-DE/ANI program official’s decision to use the JIEO
    contract and they obtained approval from the FSO director for a request for
    contract support submitted to JIEO.
    The DFAS-DE/ANI program official did not perform price anal ses for any
    procurements to support that using the JIEO contract would be x e most cost-
    effective or in the best interest of the Government, except for the General
    Ledger/Fund Control project. On this project, personnel prepared a price
    analysis that compared contractor costs under both the JIEO and DEIS
    contracts. Although the analysis showed that the DEIS contract price would be
    lower by 37 percent, the program official used the JIEO contract anyway. The
    program official did not ensure that the JIEO contractor provided the best value
    to the Government. In addition, procurement officials paid a 5 percent
    technical support fee to use the contract which was, in most cases, five times
    higher than fees of any other buying activities.


Procurement Costs
    Competitive Versus Non-Competitive Procurement Costs. The program
    officials could have used FISC, San Diego or the DEIS contracts and reduced
    their costs by $1.4 million to $3.3 million on eight projects. Also, competition
    might have been achieved under the DEIS contracts since task orders issued
    could have been competed between the six DEIS contractors that received
    awards under a multi-award acquisition. The costs of the DEIS contracts were
    lower than the JIEO contract as indicated by the price analysis prepared by
    DFAS-Denver. The potential costs avoided do not include those instances
    where prime contracts were used to obtain certain subcontractors. Additional
    funds would have been available had DFAS-Denver contracted directl with
    s&contractors using competition and avoiding added burdens and pro fyit of
    prime contractors. The following table shows a comparison of the labor costs
    under both the JIEO and DEIS contracts. See Appendix B for more detailed
    information.




                                        9
Obtaining Contractor Support for Acquisition and Development of Systems


                Table 2. Labor Cost Comparisons - JIEWDEIS Contracts
                           JIEO         pEls            Labor                &g@gl       cost srviilpn
                                        Minimum                              Minimum-

      CFG Act                  73,844     s                S    58,524   S      15,320       S    40,352
      DCMS, Incianent 1     1,301,660         595,202                          316,903           706,458
      DCMS, lncrancnt 2     1,550,454         954,641      1,387,637           162,817           595,813
      DJAS                                    375,653                    l     194,638           446,014
      GFIGL                                   139,010                           40,864           161,380
      GUPC                  1,557,842         712,698      1,126,806           43 1,036          845,144
      MAFR       for DCS                      128,790                           61,327           lS4.792
      TMR                     705.932                                        196.024382.370

          TOM              $6395571                                      $1,4X&929           $3,332,323




              MAFR CBT for DCS - Merged Accountability and Fund Reporting Computer Based Tminiig
                 for Departmental CIsh System
              TMRS - Transfer of Management Responsibility of Systems

      Additional Project Fees. The DFAS-DE/AN paid technical support fees for
      using other contracting organizations. DFAS-Denver’s use of the BEG and
      Bolhng AFB contracts resulted in DOD paying more for choosing the
      contracting organization. DFAS-DE/AN paid total fees of $563,264 to JIEO.
      Program officials could have better used at least $330,080 for the eight projects
      had they used the DEIS contracts with a lower fee. Since DEIS char ed a lower
      technical support fee of 2 percent, DFAS-DE/AN would have paid $1 33,184.
      Also, DFAS-DE/AN unnecessarily paid a fee of $53,258 for using a Bolling
      AFB contract to obtain a subcontractor, Coopers and L brand, in lieu of using
      Defense Fuel Supply Center contract SPG600-95-D-55 l 3 in which C          rs and
      Lybrand was a rime. The Government could have better used $383,3      Ye 8 had
      the program of t! cials used the DEIS and Defense Fuel Supply Center contracts
      instead of JIEG and Bolling AFB.



Authorization of Work
      Support for Unauthorized Project. Program officials used questionable
      procurement practices when they initiated the development of an unauthorized
      PMR system. This occurred when Logicon 4GT, a subcontractor and primary
      performer on the IMAS project, agreed to perform work on the PMR project
      under the IMAS project contract. DFAS-DE/ANI personnel could provide only



                                                  10
Obtaining Contractor Support for Acquisition and Development of Systems


minimal documentation for the PMR project, and these documents did not show
that DFAS-DE/ANJ had a valid need or that the project was legitimately
approved. Jn addition, DFAS-DE/ANI personnel could not provide approval
documentation for the development of the PMR project. According to a DFAS-
Denver employee, the project was eventually canceled after the Government
spent $122,346. However, we could not confirm the cancellation of the project
because documentation was unavailable. As a result, $122,346 was spent on a
project that apparently provided little or no benefit.

         PMR Project. The evidence supporting the development of the PMR
project was incomplete because paperwork was unavailable, in addition to a
general inability of personnel integral to the system’s development to recall
specific details. DFAS-DE/ANJ initiated development of the PMR project to
automate the processes most commonly performed by the office staff. Some of
these processes included: budget execution, project management reporting, audit
deficiency tracking, and the preparation of funding documents. According to
the DFAS-DE/ANI support personnel, the idea for the PMR system began when
the chief of DFAS-DE/ANJ announced an initiative to evaluate the development
of a central database in an office memorandum dated December 22,1994. The
memorandum was issued to various offices within the DFAS-Denver Center to
request a meeting with office representatives to gather requirements and analyze
alternatives. The memorandum stated:

           The Accounting and Integration (DFAS-DE/ANI) has been designated
           as tbe office of primary responsibility for configuration control for
           accounting systems managed by the Deputy Director for Accounting.
           This includes responsibility    for the Denver Center’s Interim
           Migratory     Accounting   Systems     (IMAS)    Project,  Migratory
           Aaxountiag Systems, and Legacy Accounting Systems. In addition,
           DFAS-DE/AM serves as a central point to integrate various projects
           and reports for DFAS-DE/AN.      To perform these responsibilities we
           are evaluating the development of a central data base to more
           efficiently respond to taskings and eliminate extensive manual and
           dual reporting within DFAS-DE/AN.

We could find no basis other than this memo_randum to justify the project. We
interviewed DFAS-DEIANI personnel including the DFAS-DEIANI chief,
project officers, and other support personnel. The DFAS-DE/ANJ personnel
could provide only minimal information about the project. Durin our
interviews, the project officer stated that he could not remember f etails about
the project and referred us to another project officer who was responsible for
the JMAS reject. The JMAS project officer was unable to provrde information
and she re Perred us to the DFAS-DEIANJ chief. The DFAS-DE/ANJ chief
stated he could not recall the details of the project and ain refd      us to the
DFAS-DE/ANI support personnel. The documents on %l e indicated a PMR
project was being developed. The documents included two copies of PMR
biweekly status reports for the periods May 8, 1995 through May 19, 1995, and
May 22, 1995, through June 2, 1995. One of the status reports mentioned that
the PMR project plan was delivered at a meeting held on May 8, 1995, at


                                        11
Obtain&   Contractor   Support for Acquisition and Development        of Systems


      DFAS-Denver where representatives from DFAS-DE/ANI and Logicon 4GT
      were in attendance. Also, Logicon 4GT delivered a PMR system detail design
      document to DFAS-DE/ANI on July 20,1995. We requested a copy of the
      PMR project statement of work, but DFAS-DE/ANI personnel could not
      provide one. Even with the lack of supporting documentation for the project,
      we found evidence that tasks for this project were completed under the IMAS
      contract. DFAS needs to fully investigate the circumstances of the procurement
      and take appropriate action.

               Cost of IMAS Project Contract. The IMAS proiect costs included
      taskings the contractor performed for the PMR project. The in-house
      contractin officer awarded a delivery order under Maxwell AFB contract
      F19630-8 f -D-O005 on September 7, 1994, for $1999,542 to AT&T. The
      contracting officer made the award to AT&T based on a request from the
      DFAS-DE/ANI chief. Logicon 4GT performed most of the work as a
      subcontractor and provided support for integration and migration analysis, and
      concept documentation to implement IMAS. Taskings to accomplish these
      requirements were identified in the IMAS statement of work. The statement of
      work identified a total of nine taskings. The in-house contracting officer
      confirmed that no additional taskings were issued for the IMAS project. The
      total bills the Government received and paid to AT&T for the IMAS contract
      amounted to $1999,542. Since this was a time-and-material contract, the
      AT&T bills detailed labor categories and hours expended. The AT&T bills did
      not provide detailed information on task billings. However, during our review
      of the IMAS project folders, we found that the files included copies of invoices
      that Logicon 4GT submitted to AT&T. The invoices showed that Logicon 4GT
      billed AT&T for 14 tasks. Since the IMAS project contained only 9 tasks, we
      presented the discrepancy to the DFAS-DE/ANI personnel but, they could not
        rovide an explanation or documentation for the additional tasks valued at
      s 122,346. We believe DFAS-DE/ANI incurred the additional costs for the
      PMR documents Logicon 4GT delivered, and that the unexplained tasking costs
      of $122,346 were attributable to the PMR project.



Procurement Policies
      Federal Acquisition Regulation. FAR, Part 2 defines a contract as a mutually
      bindin legal relationship obligating the seller to furnish the supplies or services
      (inclu ding construction) and the buyer to pay for them. It includes alI types of
      commitments that obligate the Government to spend appropriated funds such as
      awards and notices of awards, job orders or task letters issued under basic
      ordering agreements; letter contracts, orders, and bilateral contract
      modifications.

      Use of Delivery Orders. Program officials used delivery orders on existing
      contracts as the vehicle for obtaining contractor support. According to FAR,
      Part 2, since these were time-and-material contracts, an order is also a contract



                                           12
Obtaining Contractor Support for Acquisition and Development of Systems


that obligates the Government to spend appropriated funds. Thus, a delivery
order, just as any type of contract, must meet the FAR requirements prior to
award. The program officials considered delivery orders to be competed and in
accordance with the FAR. Their conclusion was based on the premise that the
existing contracts were awarded competitively.
        Competition. FAR, Part 6 requires competition for all acquisitions with
some exceptions. In delivery order awards, even though the basic contract was
competitively awarded, the FAR exempts competition only when alI responsible
sources were realistically permitted to compete for the requirements contained in
the order. However, thts was not enforced with the delivery orders placed on
existing contracts for the support of projects for which DFAS-DE/AN was
responsible. Each delivery order issued for the projects contained new
requirements that were not considered during the award of the contracts, and all
responsible sources were not given the opportunity to compete. In addition,
final pricing for the orders was not established until the orders were awarded.
Therefore, the contract support organizations misinterpreted the regulations and
did not competitive1 award the delivery orders. As a result of their
misinterpretations, x ese officials did not perform other essential elements of the
procurements.
       Market Research. FAR, Part 10 r uires that market research be
                                            “8ore soliciting proposals for
performed to identify all possible sources be
contracts valued at more than $100,000. Although each of the procurements
was valued at $100,000 or more, our review of the project files at the DFAS-
DE/AN found no indications that market research was performed. The absence
of market research was the result of the program managers’ conscious decisions
to make awards on existing contracts for selected contractors. The delivery
orders were awarded without considering other possible sources.
        Price Analysis. Price analysis techniques are used to evaluate contractor
proposals. The analysis is usually aided by independent Government cost
estimates that reflect the realistic price of a proposed acquisition.
DFAS-DE/AN procurements, particularly those that used the FO contract,
contained no pnce analyses to support the reasonableness of delivery order
awards, except one General Ledger/Fund Control project. In addition, the
contract required negotiations before issuing each delivery order. Contracting
officials could provide no evidence of such negotiations and, in the absence of
independent price analyses, all of the proposed prices were accepted with no
reduction. Therefore, the Government could not ensure the reasonableness of
prices for the award of the delivery orders.
        Justifiitions.    FAR, Part 6.303 requires that technical and
requirements personnel provide and certify accurate and complete data to
support their recommendation for other than full and open competition. The
FAR also requires, in Part 6.304, that justification for other than full and open
competition shall be approved in writing, Although other documents in the
project files cited either ‘continuity of work” or “time constraint” as the reason
for selecting a particular contractor, none of the project tiles contained formal


                                    13
Obt&~@ Co&actor       Support for Acquisition and Development of Systems

     justification documents to support decisions. Without the justifications,
     program officials could not substantiate that the award of delivery orders
     provided the best value to the Government.

     Secretary of Defense Memorandum “Use of Orders Under the Economy
     Act,” February 8,19!M. The memorandum addresses the DoD policy on
     issuance of Economy Act orders to other Government agencies, otherwise
     known as %ontract offloading.” The Economy Act (31 U.S.C. 1539, as
     provided in FAR, Part 17.5, allows a requirin agency topple an order with
     another agency for supplies or services when I e other agency is rn a positron to
     supply, render, or obtam; if formally determined to be in the Government’s best
     interest. In his memorandum, the Secretary of Defense stated:

                Before an Economy Act order is released outside of DoD for
                contracting action, the head of the requesting agency or designee shall
                determine that:

                o the ordered supplies or services cannot be provided as conveniently
                and cheaply by contmctinp directly with a private source;

                o the servicing agency has unique expertise or ability not available
                within DoD; and

                0 the supplies or services clearly are within the scope of activities of
                the servicing agency and that agency normally contracts for those
                supplies or senkes for itself.

     The Secretary of Defense also stated that, if the servicing agency is required to
     comply with the FAR, a written determination shall be prepared by the
     requesting agency and, if delegated by the head of the requesting agency,
     approved at a level no lower that of SES, or Flag or General Officer at the
     requesting organization. If the requesting or anization does not have a SES,
     Flag or General Officer, the commander of J e organization shall approve the
     written determination. In cases where the servicing agent is not required to
     comply with the FAR, the Secretary of Defense requires x at the written
     determination must be approved by the senior procurement executive of the
     requesting agency.

     DFAS Issuance of Economy Act Orders. Program officials did not comply
     with DOD policy on the use of orders under the Economy Act when they
     obtained contractor support for three projects from two contract organizations
     outside of DOD. DFAS-DE/AN obtained contractor support for the projects
     called Vendor Pay Reinvention Program and Job Order Cost Accounting
     System II through a contract awarded by the Department of Justice to KPMG
     Peat Marwick LLP. DFAS-DE/AN issued three MIPRs totaling $847,ooO.
     KPMG Peat Marwick LLP’s efforts to support the Vendor Pay Reinvention
     Program involved four major tasks: monitoring the pilot program, supporting
     statistical sampling process, conducting financml risk assessment, and providing
     biweekly status reports. DFAS-DE/AN also used a National Institute of Health
     contract to obtain contract support for the Defense Cash ManagementSystem,

                                              14
     Obtaining Contractor Support for Acquisition and Development of Systems


    Increment 3 project, for which DFAS-DE/AN issued a MIPR with a value of
    $2,080,500. DFAS-DE/AN issued the MIPR to the DFAS headquarters who
    then issued the Economy Act order to the National Institute of Health. The
    contractor, Lo icon 4GT, provided follow-on support to the project as it was
    the provider of support for the Defense Cash Management System, Increments 1
    and 2 projects DFAS-DE/ANI obtained through a JIEG contract. There was no
    doubt that the services DFAS-DE/ANI obtained from Department of Justice and
    National Institute of Health contractors could have been performed within DOD.
    The multiple award contracts FISC, San Diego awarded m 1996 listed KPMG
    Peat Marwick LLP and Logicon as subcontractors under one of four prime
    contracts. Also, subcontractors under the multiple award contracts were
    selected because of their capabilities to perform a wide ran e of DFAS tasks.
    Therefore, the services DFAS-DWANI obtained outside o! DODcould not be
    classified as ‘unique expertise” or Uabilitynot available within DOD.” Project
    document files did not show any written evidence that a determination was
    made, and that approval was obtained from the DFAS Director or his designee,
    before DFAS-DE/AN issued the Economy Act orders to Department of Justice
    and National Institute of Health. In addition, DFAS-DE/ANI personnel could
    provide no evidence that they met the requirements of the Secretary of Defense
    memorandum.

DFAS In-House Contracting and Legal Personnel
    DFAS Regulation 005 “Delegation of Statutory Authority,” Change 13,
    November 14,1!@4. The regulation encompassed the DFAS procurement
    policy applicable to DFAS-DE/AN projects reviewed. The regulation required
    that all procurement actions should be processed through central procurement
    offices established at the DFAS centers and headquarters. Also, it required that
    all contracts and delivery orders for acquisitions over $lO,OflO,including
    modifications of such documents, should be reviewed for legal sufficiency by
    the DFAS Office of General Counsel. Subsequently, DFAS issued DFAS
    Regulation 4200.1, “Acquisition Structure and Policy,” on June 2, 1997, which
    similarly prescribes DFAS procurement policy, but under a modified authority
    and structure. The new regulation provides DFAS headquarters with a more
    centralized authority, but did not eliminate the central procurement offices at the
    centers. Currently, it would be too early to tell whether the new regulation
    would result in strengthened controls over DFAS-Denver procurement
    operations.
    Involvement of In-House Contracting and Legal Personnel. Program
    officials bypassed the in-house contracting and legal personnel in the
    procurement process for obtaining contractor support despite the DFAS
    regulation. Only 4 of 16 procurements made b DFAS-DE/AN had
    documentation of in-house contracting and legJ personnel reviews. Their
    review was vital to the pn>cessbecause it served as an integral part of internal
    management control that addressed the procurement and legal aspects of the
    acquisition. For example, the in-house contracting officer would serve as an
    independent evaluator to ensure the validity of procurement actions in
    accordance with DFAS and federal regulations. According to the contracting

                                        15
Obtaining Contractor Support for Acquisition and Development of Systems

      officer and legal personnel, they did not review procurement documents because
      the responsible project officers and program officials did not submit the
      procurement packages. No supporhng documents were contained in the files to
      explain the rationale for bypassing the in-house contracting officer and legal
      personnel.

      Even when DFAS-Denver officials did not bypass in-house contracting staff,
      DFAS-Denver was not always successful in scrutinizing procurement actions.
      Requests that actually did reach the central procurement office were not
      reviewed for completeness. For example, as a part of procurement packages,
      DFAS-DE/AN issued three MIPRs valued at $847,000 to the Department of
      Justice between November 1996 and February 1997. On1 two of the MIPRs
      were processed through the DFAS-Denver contracting of d ce. The contracting
      officer did not properly review the packages for either MIPR. Had a review
      been completed, it would have determined that a waiver was not obtained for
      the procurement of services. The contracting officer, at first, mistakenly
      believed that he had not seen the packages and stated that he would have closely
      scrutinized a request to use the Department of Justice. However, once it was
      determined that he had signed off on the packages, the contracting officer then
      stated that there was a lack of personnel in the contracting office to do an
      adequate review of each funding document. Although controls were put in
      place, at least one directorate did not completely adhere to the regulatron and
      when the directorate did adhere to the regulation, the contracting office did not
      always do its job properly. Controls in place to oversee procurement awards
      were not working and need to be strengthened. We believe that because of a
      pattern of directing awards to selected contractors, DFAS-Denver staff were not
      able to render impartial decisions involving awards and these decisions need to
      be moved to DFAS headquarters.


Potential Conflict of Interest
      The number of contract awards to Logicon 4GT, and the DFAS-DEIANI chiefs
      involvement in the PMR project were particularly disturbing in light of the
      chiefs relationship with the Denver branch manager of Logicon 4GT. Since
      1994, DFAS-DE/ANI has paid Logicon $20.7 million for various contracts.
      Relationship. The DFAS-DE/ANI chief and a Logicon 4GT Denver operations
      manager, the highest ranking Logicon official at Denver, have had a social
      relationship since June 1984 when both worked for the Government. The
      Logicon 4GT employee left the Government in August 1989 and began working
      for Lo icon 4GT in June 1991. In September 1994, the work on the IMAS, the
      first o f the 12 projects we reviewed that Logicon 4GT supported, was given to
      Logicon 4GT through a Maxwell AFB contract with AT&T. The delive order
      award to AT&T was made based on a request from the DFAS-DE/ANI cx ‘ef.
      The DFAS-DE/ANI chief and the Logicon 4GT employee became brothers-in-
      law in July 1996 and it was at this time that the DFAS-DEIANI chiefs
      supervisor requested that the general counsel review the relationship.
      Legal Review. The DFAS-Denver general counsel found that the relationship
      between the DFAS-DE/ANI chief and the Logicon 4GT employee constituted a

                                          16
     Obtaining Contractor Support for Acquisition and Development of Systems


    “covered” relationship (a relative with whom the employee has a close
    relationship). On November 25, 1996, the general counsel recommended the
    DFAS-DE/ANI chief be transferred from his position. The general counsel
    stated that he believed a reasonable person would question the DFAS-DWANI
    chiefs impartiality in dealings with Logicon 4GT, and that unless a
    determination was made that the Government interest outweighed impartiality
    concerns, the ethics regulations required that the DFAS-DE/ANI chief be
    disqualified from acting in current matters involving Logicon 4GT. The general
    counsel also pointed out that he could foresee other problems, most notably that
    of the DFAS-DE/ANI chief receiving a personal gift from the Logicon 4GT
    employee which could violate FAR 52.203-3, prohibiting contractors from
    offering gratuities and gifts to Government employees. By the time the legal
    counsel made the review, the contracts for the support of 12 projects that
    Logicon worked on had already been awarded.

    DFAS-Denver Action. After waiting 5 months from issuance of general
    counsel opinion, the DFAS-Denver Director, to compl with the general
    counsel recommendation, moved the DFAS-DE/ANI cKief from the Accounting
    and Integration Division to the Department of Accounting as the Deputy
    Director, a more prestigious position. At the time this occurred, the position of
    Deputy Director was two management levels above the Accounting and
    Integration Division. However, in the reorganization that occurred in October
    1997, the Department of Accounting is one management level above his original
    position. This individual remained in direct line of command and still in a
    position to influence future procurements. DFAS-Denver management did not
    seek a legal opinion of this latest personnel action. Then, in December 1997,
    and because of this audit, the individual was reassigned as the division chief of
    the General Procedures and Systems Division, Department of Accounting.
    However, according to the position description, this person still remained in a
    position to influence future procurements, thereby, weakening internal controls.
    In an regard, the employee still remains in a high-level position with the ability
    to in Kuence procurements involving Logicon 4GT.


Conclusion
    Program officials engaged in questionable procurement practices that included
    directing work to a selected contractor, procuring unauthorized work, and
    u~ecessarily offloadin contract work outside of the DOD. The DFAS-Denver
    Director also did not taEe sufficient action to eliminate a conflict of interest
    situation. As a result, DOD may have overpaid between $1.9 million and
    $3.8 million for contract support services. In addition, controls were not in
    place to prevent future problems with procurements.




                                        17
Obtaining Contractor Support for Acquisition and Development of Systems



Recommendations and Management Comments
      We recommend that the Diior,       Defense Futance and Accounting Setie:

              1. Establish a team of headquarters procurement personnel that will
      perform a periodic review of the implementation of Defense Finance and
      Accounting Service Regulation 4200.1, “Acquisition Authority and Policy,”
      to eliminate the recurrence of procurement problems atldressed in the audit
      finding.

             2. Investigate and take appropriate actions against those personnel
      involved in directing improper contract awards and performing an
      unauthorized project.

      DFAS Comments. DFAS concurred with both recommendations. See Part III
      for the full text of management comments.




                                        18
Part II - Additional   Information
Appendix A. Audit Process

Scope and Methodology
    Audit Scope. Our review focused on the procurement actions of the DFAS-
    DE/AN. Between 1994 and 1997, DFAS-DE/AN issuedmilitary
    interdepartmental purchase requests totalin $23.4 million to 8 contracting
    organizations to obtain contractor support % or 19 projects using 3 contractors.
    Specifically, we reviewed DFAS-DE/AN procurement procedures for the
    16 projects valued at $20.7 million and the associated project files located at
    DFAS-Denver. We also examined the project and contract files associated with
    the eight projects at JIEO, Fort Monmouth, NJ. Additionally, we examined the
    project and contract files kept at FSO for the eight projects that used the JIEO
    contract and one project that used the Defense Financial Integrated Systems
    Services contract. We interviewed programming, contracting, functional, and
    technical personnel located at DFAS-Denver and DFAS-FSO, Indianapolis. We
    also interviewed contracting personnel at JIEO, Fort Monmouth, NJ. We
    reviewed records and documentation dating from 1994 through 1997.

    Audit Period, Standards and Locations. We performed this economy and
    efficiency audit from March 1997 through September 1997 in accordance with
    audit standards issued by the Comptroller General of the United States as
    implemented by the Inspector General, DOD. Accordingly, we included a
    review of management controls considered necessary. No statistical sampling
    procedures or computer processed data were used during the audit.

    Contacts During the Audit. We visited or contacted contractor personnel and
    individuals and organizations within DOD. Further details are available upon
    request.



Management Control Program
    DOD Directive 5010.38 “Management Control Program,” as revised August 26,
    1996 requires DOD organizations to implement a comprehensive system of
    management controls that provides reasonable assurance that programs are
    operating as intended, and to evaluate the adequacy of the controls.

    Scope of Review of the Management Control Program. We reviewed
    management control procedures relating to procurement of contractor support
    services at DFAS-DE/AN and the contracting office at DFAS-Denver.




                                       20
                                                        Appendix A. Audit Process


     Adequacy of Management Controls. We identified material management
     control weaknesses as defined by DODDirective 5010.38. DFAS-Denver
     management controls were not adequate to prevent program officials from
     directing sources of procurements and developing an unauthorized project.
     DFAS personnel did not adhere to procurement policies and procedures in
     awarding procurements. In addition, control weaknesses still exist concerning
     separation of functions. Recommendation 1, if implemented, will improve
     contractor support procurement procedures and prevent program offrcrals from
     making decinons concerning contract awards. A copy of the report will be
     provided to the senior official responsible for management controls at DFAS.
     Management’s Self Evaluation. A branch within DFAS-DE/ANI completed a
     risk assessment in Feb      1997 but no management control reviews were
     completed because DFAS-rua% EYANIwas only formed in 1994 to modernize and
     consolidate field, departmental, and Air Force major command-unique
     accounting systems which made DFAS-DEIANI not accountable in the 5-year
     cycle within which control reviews are required. The contracting office did not
     perform a self evaluation because that section was not considered an assessable
     unit.


Prior Audit
     Inspector General, DOD, Report 98-099, “Audit of the Continued Use of a
     Single Contractor for Contract Reconciliation Work,” April 2, 1998. The
     report states that from 1989 through 1997, the Defense Logistics Agent and
     the Defense Finance and Accounting Service did not plan the scope or 1epth of
     reconciliation services and continuously used Coopers and Lybrand to obtain
     these services. The Defense Logistics Agency and the Defense Finance and
     Accounting Service established initial contact with Coopers and Lybrand when
     it was a subcontractor on an existing sole-source contract. The Defense
     Logistics Agent and the Defense Finance and Accounting Service awarded
     Coopers and Lygrand two additional contracts by issuing sole-source awards
     claiming unusual and compelling urgency and uniqueness of capabilities for
     performing the work. As a result, DODhas no idea of the reconciliation
     requirements and has allowed one contractor to be the sole provider of
     reconciliation services for over eight years. In addition, DOD lost the benefits
     that result from contract competitron. Recommendations were directed to the
     Under Secretary of Defense (Comptroller), to establish an independent panel to
     determine the extent of reconciliatton services, and within six months to arrange
     for a competitive acquisition using firm-fixed price or incentive award
     contracts, and terminate the current reconciliation services contract. We also
     recommended that the Directors of the Defense Logistics Agency and the
     Defense Finance and Accounting Service review the circumstances of the
     procurement and take appropriate action against any personnel involved in using
     mappropriate justifications to award contracts.




                                        21
Appendix A. Audit Process


      The Defense Finance and Accounting Service agreed to review applicable staff
      actions and take appropriate action against those involved in using inappropriate
      justifications to award contracts. The Defense Logistics Agency felt that it did a
      good job of planning for reconciliation contracts given the circumstances of not
      knowmg the scope and depth of work for which it was contracting. The
      Defense Logistics Agency stated it had reviewed applicable staff actions and
      determined that no action was warranted for the acquisition officials involved.

      The Office of the Inspector General, DOD, disagreed that the Defense Logistics
      Agency did an adequate job planning reconciliation services procurement and
      stated the response was unacceptable because the Defense Logistics Agency
      failed to accept responsibility. The Defense Logistics Agency was requested to
      reconsider its positron and provide additional comments to the final report. The
      Defense Finance and Accounting Service was asked to provide comments
      explaining when it will complete a review of staff actions.




                                         22
Appendix B. Contractor Labor Costs Comparison
                  NumberJlEGCorltnct                             DElS Contracu Labor Coats
                  OfLabor Labor                                                                                                           Potelsial cti    SW&s
Proiect Tiis      How’      Coat            BDM            Boeir\p            csc           EDS         Lockbc4dMartin     Uninr         ~inimuq 1          Maximulq’
CM Act
  Compliallce       928s      73,843.52    $36,852.04    $ 33.492.04    t   36.414.88    S 58.523.84    $ 41.323.48     S 38,723.44    S 15.319.68          $40,351.48
DCMS,
  Jncrement1     15,524 1,301,660.04       643,250.70      595,201.80       792,993 A0    984,756.70      710,810.42     684,687.86      316.903.34         706,458.24
DCMS
  Increlncd 2    18,017 1.550.453.63       991,736.04    1,016,861.15   1,387,636.99       954,640.36    1.032.513.55   1,043,465.07     162.816.64         595.813.27
DJAS              9,799   821,666s         406.983.03      375,653.30     488,850.52       627.028.71      450.935.76     433.042.40     194,638.28         446.013.69
GFIGL             3,319   300,390.40       144.145.31      139,010.69     259,526.27       199.371.65      152.829.88     156J93.80       40,864.13         161.379.71
GL’FC            19,000 1.557,842.00       778.633.20      712,697.60     992.672.80     1,126,806.00      839,227.20     816,264.80     431,036.OO         845.144.40
Departmental
  iL4FRcBT
  faDCS           3,536       283,582.08   141,148.20      128.790.12       146.932.16    222,254.88      157,706.84     148.632.24        61.327.20         154.791.96
                  8,319       705.932.10   344,846.79      323,561.61       488,946.09    509,907.87      375.411.72     368,643.78       196.024.23         382.370.49
 Total                     $6,595,370.76                                                                                               $1,418,92950       S3,332,32334
 Perctlltageofs8+qJs                                                                                                                        22%                51%

Acnwynu:
CFO - Chief Fiiial   CM&en
DJAS - Defense Joint Accounting System
GFlGL - Genenl Funds Genenl Ledger
GUT - Gcncnl Ledger Funds Control
DCMS - DepaItnlcntalCab Managementsyatema
MAFR Cm for DCS - Merged Accountabilii and Fund ReportingComputerBaaedTmining for DcpartmcntalCauhSystem
TMRS - Transferof Mmugemnt Responsibiity of Syatcmr



‘Houraspenl on mody used labor categoricasuch as ComputerSystema Analymta- Senior, Mid, and Junior Levels.

2Coqared the JIEX)cost to the highest tort under the DEIS contract.

‘Comparedthe JIEGcost to the lowest cost under the DEIS contract.
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition and Technology
  Deputy Under Secretary of Defense (Acquisition Reform)
  Director, Defense Logistics Studies Information Exchange         l


  Director, Defense Procurement                                         .
Under Secretary of Defense (Comptroller)
Assistant Secretary of Defense (Public mairs)


Department of the Army
Auditor General, Department of the Army


Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Auditor General, Department of the Navy


Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force


Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Logistics Agency
Director, Defense Finance and Accounting Service
Director, National Security Agency
      Inspector General, National Security Agency
Inspector General, Defense Intelligence Agency


Non-Defense Federal Organizations and Individuals
Office of Management and Budget
Technical Information Center, National Security and International Affairs Division,
   General Accounting Office



                                            24
                                                    Appendix C. Report Distribution



Non-Defense Federal Organizations and Individuals (Cont’d)
Chairman and ranking minority member of each of the following congressional committees
  and subcommittees:

  Senate Committee on Appropriations
  Senate Subcommittee on Defense, Committee on Appropriations
  Senate Committee on Armed Services                     l



  Senate Committee on Governmental Atfairs
  House Committee on Appropriations
  House Subcommittee on National Security, Committee on Appropriations
  House Committee on Government Reform and Oversight
  House Subcommittee on Government Management, Information, and Technology,
     Committee on Government Reform and Technology
  House Subcommittee on National Security, International Affairs, and Criminal Justice,
     Committee on Government Reform and Oversight
  House Committee on National Security




                                          25
Part III - Management   Comments

                          .
Defense Finance and Accounting Service
Comments

                  DEFENSE       FINANCE       AND     ACCOUNTING        SERVICE
                                 ISJI   JLFFLRBON     DAVIS   HIGWWAY

                                    ARLINGTON,      VA PZP40-S20   1

                                                                            AFlR   Ill998
 DFASNQIC

     MEMOI’UNDUM FORDlRECTO~ CONTRACT MANAGEMENT DIRECTORATE,
                       INSPECTOR GFWRAL, DEPARTMENT OF DEFENSE

      SUBJECT: Procurement Practices md Procedure for Obtaining Contractor Support at
               Defense Finance and Accounting Service - Denver (DoDIG Project No.
               7CK-8009.01). February I I, 1998

             Attached you will find our comments on the findings and recommendations documented
     in the subject drr& audit report.

            My point of contact is Mr. Gary Maxam, DFAS- ASO/C. (703) 6074709.




     A-
     As atad
                              VW                C4ZM.C8l7ES
                                    irector of Resource Management




                                                 28
Defense Finance and Accountine Service




                                                                               Project No. 7CK-aooO.01
                                                                                                 4ma



       Recommendation 1. E&IL& a tarn of kdquartas procurementpersonnelthat will paform a
       periodic review of the impkmuUation of DefenseFii      and AccountingServiceRegulation
       4200. I, %quiaition Authority end Policyr to &ninate the reoccUrrena of procurement
       problenu addraad in the audit finding.

       DFAS Rapoose.z Camcurwith the atabMtment of a tarn of headquartersprocurement
       pcrso~d to accomplisha periodicreview of DFAS Regulation4200. I impkmentation. This
       tam will complete their review prior to June30.1998. Through the DFAS AcquisitionSupport
       Organization_now in its secondyear of operation,our contractingprocedureswill receivethe
       unbiued review nccamry to pfcchic aimilu situations.

       Recommendatloa 2. Investigateand tie appropriateactionsagainstthoseperso~el involvedin
       directing impropercontractawarda and performingan unauthorizedproject.

       DFAS RCS~OIISC:       Concur with this recommendation.I understendan invatigntion by the
       Defense Crimikl lnvatigative Serviceis already in process;therefore,to avoid duplicationof
       effort, I will not initiate a separateinvestigation.However, I supportand rtrnd ready to asist the
       DCIS investigation. If this investigationlads to substantiatedwrong doing on the part of the
       DefbnseFinanceand AccountingService- Denver Centerpersonnel,DFAS will take the
       rppropriate corrective/administrative    action.




                                                    29
Audit Team Members

     This report was prepared by the Contract Management Directorate, Office of
     the Asststant Inspector General for Auditing, DOD.

     Paul J. Granetto
     Terry L. McKinney         l

     Bruce A. Burton
     Arsenio M. Sebastian
     LaNita C. Matthews
     John A. Seger
     Monica S. Rice
     Ana M. Myrie
